No. 19-563

3fn tbe ~upreme Qeourt of tbe Wniteb ~tateg

STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,

ETAL.,
Petitioners
v.

PATRICKJ. COLLINS, ET AL.,

Respondents.

CERTIFICATE OF SERVICE
I, Robert C. Schubert, a member of the Bar of this Court and counsel for
amici curiae Bryndon Fisher, Bruce Reid, and Erick Shipmon, certify on this 27th
day of November 2019, that I caused three copies of the Brief of Amici Curiae
Bryndon Fisher, Bruce Reid, and Erick Shipmon to be served by overnight mail and
electronic means on the following:
Jeffrey B. Wall
Acting Solicitor General
Department of Justice
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov
Counsel for Petitioners Steven T. Mnuchin, Secretary of the Treasury, et al.
Charles J. Cooper
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
ccooper@cooperkirk.com
Counsel for Respondents Patrick J. Collins, et al.

I further certify that all parties required to be served have been served.

Robert C. Schubert

